                                         NATIONAL SCIENCE FOUNDATION
                                         OFFICE OF INSPECTOR GENERAL
                                           OFFICE OF INVESTIGATIONS

                                   CLOSEOUT MEMORANDUM

Case Number: A08030013
                                                                   11         Page 1of 1


    During one of our proactive reviews,*this proposal was identified as having text copied
    from several sources without appropriate citation. Our analysis of the text indicated
    the P I had copied only a small number of lines from each source, with only a few
    complete sentences ip total. Furthermore, some of the copied text was definition of
    terms the community routinely uses. Given the small amount of copied text and the
    nature of the material, we concluded the identified copying did not rise to the level of
    research misconduct. However, we sent the PI and co-PIS a letter cautioning them to
    exercise better citation practices. Accordingly, this case is closed.




        See page 34 of our March 2006 Semiannual Report.
